                            *** INVESTIGATIVE ALERT ***

          Weak Internal Controls Over Use of Federal Express Mail Services


        The Office of Inspector General (OIG) recently closed an investigation of an employee
who operated a personal business from his Federal Trade Commission (FTC) office. As part of
this investigation, the OIG learned that lax controls over the use of Federal Express (FedEx) mail
services enabled him to use these services in the conduct of his business. Specifically, this
particular employee abused the agency’s FedEx account for years accumulating thousands of
dollars in charges which were paid by the FTC.


                                          BACKGROUND

        FedEx services are available to FTC staff as an alternative to the U.S. Postal Service
(USPS) and other private shipping services. Advantages of FedEx over USPS mail include
speed (same day and overnight delivery), security and the ability to track a parcel throughout its
delivery. Agency staff use FedEx to send legal and other official documents to FTC regional
offices, law firms, businesses, litigants and consumers.

        The agency has made the use of FedEx easy and convenient for its staff. Any FTC
employee can obtain a preprinted FedEx airbill (mailing label) from the mailroom or fill out a
blank airbill that can be obtained from any FedEx drop box, or printed from www.fedex.com.
The preprinted information on the airbill available from the mailroom includes the FTC address,
as well as the FTC FedEx account number. The account number is important as it determines
who will pay for delivery. There are a total of ten FTC FedEx account numbers, one for
headquarters, one for the New Jersey Avenue Satellite building and one for each regional office.

        Before each FedEx package is sent out, the sender must provide his/her name and
recipient information on the airbill, the type of service requested (i.e., priority, standard, “2 Day,”
etc.) and any handling instructions. The sender may include an additional completed airbill and
FedEx envelope inside the FedEx package so that the recipient can return any documents to the
sender without incurring charges. This ensures that the FTC, rather than the sender, will be
billed for the return shipment.

       Once the airbill is completed and affixed to the package, it can be dropped at any FedEx
mailbox. FedEx drop boxes are located near the mail room in the New Jersey Avenue Satellite
building, and in the headquarters building garage, as well as on several other floors of each
building and in the regional offices. Parcel pickup occurs at preset times each business day.


                                                 - 1 ­

        Several times each month, FedEx bills the agency for mail services used by FTC staff.
Amounts invoiced for individual transactions depend on the weight of the item mailed and the
type of handling instructions requested. Most transactions range from between $5 and $10.
Invoices are sent directly to the Contracting Officer’s Technical Representative (COTR) in the
Administrative Services Office (ASO) and to the FTC’s payment servicer, the National Business
Center. They are not seen by the sender or his/her bureau/office supervisor. The COTR
completes a receiving report and sends it to NBC where the invoice is scheduled for payment. In
FY 2004, these invoices totaled $165,600.


                                            FINDINGS

       Internal control serves as the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. Internal control should be designed to provide reasonable
assurance regarding prevention of or prompt detection of unauthorized acquisition, use or
disposition of an agency’s assets.1

       The OIG found several weaknesses in internal control in the agency’s administration of
the FedEx mail services program. These weaknesses permitted program abuses to continue
unnoticed for multiple years at a substantial cost to the agency.

       Finding 1. FTC account numbers for FedEx usage are not controlled

         The FTC does not control the account number that FedEx uses to bill for mail services.
Further, the account number, which has not been changed for several years, is preprinted on
airbills supplied to staff by FTC mailroom personnel. Mailroom personnel told the OIG that
these preprinted labels are given out upon request with no justification or approval required.

       As an alternative, staff can simply go on line and download airbills and write in the FTC
account number. In either scenario, knowing the account number provides the sender with the
equivalent of a credit card for FedEx mailing purposes. Anyone with knowledge of this account
number could use it to send FedEx packages.

       Finding 2. Supervisory Approval is not Required to use FedEx

        Unlike some other federal agencies, the FTC does not require supervisory approval before
FedEx can be used. As a result, staff alone make determinations on the best method for delivery
of the correspondence or parcel. The subject of the OIG investigation used FedEx as frequently
as 20 times per month in select months and in one month used it 107 times and was never
questioned by his supervisor.


       1
               Standards for Internal Control in the Federal Government. United States General
Accounting Office (GAO/AIMD-00-21.3.1)

                                                -2­
       Finding 3. FedEx is Centrally Billed Within the FTC and There is no Supervisory
       Review of FedEx Invoices

       The FTC receives an average of 60 FedEx invoices per month. Each invoice contains any
number of individual transactions. Invoices reviewed by the OIG included the following
information:

       #       Sender Name & Address

       #       Recipient Name & Address

       #       Tracking ID

       #       Service Type (e.g., priority service, overnight, etc.)

       #       Drop-Off Location

       #       Signature of Person accepting Delivery

       #       Delivery Date & Time


       When the COTR reviews invoices, he identifies egregious transactions based on cost or
shipping weight. Transactions that are less than $50 are usually not questioned. In the months of
October and November 2004, the OIG noted that 97 percent of invoiced transactions for 601 NJ
Avenue (420 of 432) were less than $50.

        When the radar is set high, many transactions will go unquestioned. The subject of the
OIG investigation operated unnoticed because all of his domestic charges, including the
relatively more expensive weekend service, were far less than the $50 per transaction threshold.
Similarly, overseas usage by this employee was not questioned for the same reason. Twenty
FedEx transactions of approximately $40 each were sent from outside the U.S. Frequent and/or
extraordinary (e.g., overseas) usage in and of themselves are not reasons for scrutiny.

        Lowering the dollar threshold for more careful scrutiny would not necessarily result in the
COTR identifying more fraudulent or inefficient transactions. The COTR cannot determine
whether staff’s use of FedEx is for business-related purposes, regardless of the invoiced amount.
Further, one cannot rely on the recipient’s name and address in making this determination. On
the other hand, such insight is usually available to employee supervisors. However, invoices are
not sent to the supervisors for review before they are paid. It is likely that the supervisor of the
investigative subject was unaware of the extent to which FedEx was used by this agency
employee.

        Managers in ASO told the OIG that requiring supervisory review would be very
cumbersome, due to the number of monthly invoices (60) and the current invoice format. FedEx
invoices do not segregate users by division or organization code. Since the FedEx is paid from a
central account, it is likely that bureau and office management are unaware of who is using
FedEx, for what purposes and to what extent. Without accountability, there is little incentive to
use FedEx efficiently and greater risk that FedEx services will be abused.


                                                - 3 ­

                                          SUMMARY

        The OIG found no controls over the use of FedEx at the front end of FedEx use (i.e.,
when the agency employee prepares the airbill for shipment) or after the fact (supervisory review
of FedEx usage) that would eliminate or minimize the opportunity for fraud, waste and abuse of
this program. Our recent investigation of misconduct by one agency employee indicated that
employee abuse of this service spanned multiple years before the employee was reported to the
OIG by a third party FedEx mail recipient. We learned of no instance where a supervisor
informed an employee not to use FedEx, and employees do not need supervisory approval to use
FedEx. Furthermore, the current centralized billing of FedEx charges to ASO reduces the need
for staff in the bureaus and offices to be accountable for how it uses FedEx. The agency should
establish effective, yet efficient program controls to provide assurances that the program is used
only for its intended purposes.


                                    RECOMMENDATION

       The OIG recommends that ASO develop and implement procedures requiring supervisory
       review of FedEx invoices. ASO should work with FedEx to provide a format to facilitate
       this review.




                                               - 4 ­

